WAIVER

SUPREME COURT OF THE UNITED STATES

No, |21-62 7

Paul Poupart

| Louisiana, etal

(Petitioner) Vv. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one 1s requested by
the Court.

Please check the appropriate box:
© [am filing this waiver on behalf of all respondents.

oO Lonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

—_ a

 

Please check the appropriate box:

© Tama member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.}

oO [am not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court.
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

(Type or print) Name \shae McPhee
© wr O Ms. O Mrs. O Miss

Fem [Louisiana Department of Justice

Address 1885 N. Third Street —_

City & State (Ba lon Rouge, LA

 

 

  

Phone 225-938-0779 _ Email lmephees@ag.h uisiana.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please mdivate below the
name(s) of the recipient(s) of a copy of this form, No additional certificate of service or cover letter 1s required.

 

‘Paul Poupart, #357073

ce:
